HHS/OIG-Audit--"Beverly Manor of Margate, a skilled nursing facility,
billings for ancillary medical supplies (A-09-96-00090)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Beverly Manor of Margate, a Skilled Nursing Facility, Billings for Ancillary
Medical Supplies for the Period January 1, 1993 through December 31, 1994,"
(A-09-96-00090)
July 29, 1997
Complete Text of Report is available in PDF format
(145 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report discloses that Beverly Manor of Margate (Beverly Manor) generally
complied with Medicare's rules relating to the treatment of medical supplies
as ancillary or routine, both as Medicare billings and as costs claimed on its
Medicare cost reports for calendar years ended December 31, 1993 and December
31, 1994. Beverly Manor is one of over 600 skilled nursing facilities in a national
chain.
However, from a review of the current master list used to classify each medical
supply item as routine or ancillary, we noted 36 routine medical supply items
that were classified as ancillary. According to Beverly Manor's home office,
Beverly Health and Rehabilitation Services, Inc. (BH&RS), this master list
is used by all facilities in the chain.
We recommended that Blue Cross ensure that BH&RS reviews its master list
to identify and correct all of its classifications of ancillary medical supplies
that should be treated as routine.